<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:40 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Stevens, Cochran, and 
Domenici.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. GORDON ENGLAND, DEPUTY SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        ADMIRAL EDMUND P. GIAMBASTIANI, JR., VICE CHAIRMAN, JOINT 
            CHIEFS OF STAFF
        HON. TINA JONAS, UNDER SECRETARY OF DEFENSE (COMPTROLLER)


             opening statement of senator daniel k. inouye


    Senator Inouye. The hearing will please come to order.
    Mr. Secretary, we appreciate your appearing before the 
subcommittee as we begin our review of your administration's 
fiscal year 2008 Department of Defense (DOD) budget request. We 
would also like to welcome the Comptroller, the Honorable Ms. 
Jonas, Under Secretary of Defense, and the Vice Chairman of the 
Joint Chiefs of Staff, Admiral Giambastiani.
    The budget request before the subcommittee is $463.2 
billion, an increase of 11 percent over the fiscal year 2007 
budget. In addition, the Department is requesting $141 billion 
to continue the global war on terror in fiscal year 2008. These 
two budgets bring the total requests for DOD's operations in 
fiscal year 2008 to $604.2 billion, representing an enormous 
investment for the American taxpayer, an investment which, 
although necessary, has the unintended consequence of reducing 
opportunities to invest in other critically important sectors 
such as education and health.
    Mr. Secretary, we share your mandate to assure a strong 
defense for our Nation and look forward to discussing these 
defense priorities and challenges, and I believe every member 
of this subcommittee will agree that our men and women in 
uniform deserve the best leadership, equipment, and training 
that can be provided. We also expect them to receive fair 
compensation and compassionate care when wounded or ill.
    As stewards of our national treasure, we must be sure that 
these funds are efficiently and effectively getting the best 
value for the American people. It's imperative. Today and over 
the course of the next several weeks we look forward to hearing 
what steps DOD is taking to reduce costs and improve business 
practices so that future budget requests avoid unwarranted cost 
increases.
    Secretary England, I thank you for appearing today. Your 
full statement is made part of the record, but before we begin, 
may I turn to my vice chairman, the Senator from Alaska, Mr. 
Stevens, for his opening remarks.
    Senator Stevens. Thank you very much, Mr. Chairman. In view 
of the delay, I won't make any opening. Just put mine in the 
record. I welcome the Secretary, Ms. Jonas, and the Admiral 
also, that we rely on very greatly in terms of their 
presentations.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    I join the Chairman in welcoming our witnesses here today. 
Thank you all for your service and for appearing here to 
discuss the fiscal year 2008 budget request.
    We face a difficult task in balancing the military's 
competing requirements for modernization, maintaining force 
readiness, and improving the quality of life for our military 
service members and their families. As we all know, the demand 
for funding far surpasses the amounts available. We look 
forward to working with you to meet the most pressing needs. I 
look forward to hearing your testimony here today.
    Thank you, Mr. Chairman.

    Senator Inouye. Mr. Secretary.
    Mr. England. Mr. Chairman, thank you, and Senator Stevens, 
members of the subcommittee. It is our pleasure to be with you 
today. The statement is in the record, so I'm frankly just 
going to say a word or two. That is, I know you had a long 
session yesterday with the Secretary and with General Pace, and 
so I believe you have our perspective on the budget at this 
time.
    So today, Tina Jonas, the Comptroller, and Admiral 
Giambastiani, the Vice Chairman, and myself would like to 
provide whatever clarifying we can today to build on the 
testimony yesterday. We're pleased to do that. We're also 
obviously pleased to meet with you or your staff or members on 
any issue that you may have as we go forward.


                           prepared statement


    So rather than have a lengthy commentary at the beginning 
here, we are ready for your questions, and we appreciate the 
opportunity to be able to expand on yesterday's hearing. Thank 
you for the opportunity to be with you today.
    Senator Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]

               Prepared Statement of Hon. Gordon England

    Chairman Inouye, Senator Stevens, members of the Senate 
Appropriations Sub-Committee on Defense, thank you for the invitation 
to discuss the defense budget requests. And thank you for your 
continuing support for all of our men and women in uniform and their 
civilian counterparts. We all share a common objective--to protect and 
defend America, and to prepare the men and women of the Department of 
Defense to help do so.
    The Vice Chairman of the Joint Chiefs of Staff Admiral Giambastiani 
and the Under Secretary of Defense (Comptroller) Ms. Jonas are here 
with me, and the three of us look forward to your questions.
                           context and vision
    When authorized, the defense budget request will provide our joint 
warfighters with what they need to accomplish their mission of 
protecting and defending America--our land, our people and our way of 
life. The mission is to defeat terrorists, protect the homeland, and 
deter and if necessary defeat future threats. Iran, North Korea, and 
China--in different ways--are currently the most worrisome concerns.
    It is important not to lose sight of the long-term strategic 
picture while we prosecute the current war. The Department still 
requires systems to deter or dissuade possible future threats. It is a 
lot less expensive to deter and dissuade, than to fight and defeat. It 
is important both to fund near-term tactical expenses and to invest in 
long-term deterrence, or the Nation will be at risk. Finding the 
balance is--as always--a challenge for the Department and for the 
Nation.
    The budget requests currently before you will achieve the following 
things:
  --Make the necessary strategic investments to modernize to meet 
        current and future security challenges and to recapitalize 
        joint warfighting capabilities;
  --Sustain the all-volunteer military by increasing ground forces, 
        reducing stress on the force, and improving the quality of life 
        for our servicemembers and their families;
  --Improve readiness throughout the force through additional training 
        and maintenance, and more timely force reset after deployment;
  --Enable the United States and partner nations to achieve success in 
        the war on terror--in Iraq, in Afghanistan, and around the 
        world.
                            budget requests
    There are three requests before the Congress. The President's 
request for fiscal year 2008 includes the base defense budget request 
for $481.4 billion and $141.7 billion to fight the global war on 
terror. The fiscal year 2007 Emergency Supplemental Appropriation 
request for the Global War on Terror is $93.4 billion. The total 
request is $716.5 billion.
    These numbers are undoubtedly large. They exceed the defense 
spending of America's closest allies--and the entire GDP of many of our 
close partners. But they also reflect the realities and 
responsibilities of this Department--what is required to adequately 
protect and defend America, now and in the future.
    Let me first describe the ``theory of the case'' for using these 
three categories, then review what each of the requests buys the Nation 
in terms of security and defense.
                               categories
    In general, the base budget funds the Department's mission to 
``man, organize, train and equip'' America's armed forces. The base 
budget captures and balances the costs of sustaining the force, with 
the costs of investing in capabilities needed to meet emergent security 
challenges.
    Supplementals, in turn, have been used to finance the ongoing costs 
of contingency operations, including costs of the global war on terror. 
Iraq- and Afghanistan-related costs account for most of the total. One 
helpful way to think about this category is that it includes 
``emergency'' costs, brought about by the current war effort, which the 
Department would otherwise not have had at this time.
    In Title IX of the fiscal year 2007 DOD Appropriations Act, 
Congress appropriated $70 billion in emergency funds to the Department. 
One of the budget requests now before you is the Department's fiscal 
year 2007 supplemental request, to continue to support war-related 
costs for the rest of the current fiscal year.
    In fiscal year 2008, the approach is somewhat different. In the 
National Defense Authorization Act for Fiscal Year 2007, the Congress 
directed the President to submit the full-year costs of ongoing 
operations in the war on terror in the defense budget.\1\ Accordingly, 
the global war on terror request for fiscal year 2008 is being 
submitted as part of the defense budget. Substantively, it covers the 
same kinds of requirements addressed in previous supplementals. Since 
it addresses the inherently changeable circumstances of war, accurately 
predicting requirements is difficult, so the Department has used 
projections based on current monthly war costs.
---------------------------------------------------------------------------
    \1\ Pursuant to Section 1105.
---------------------------------------------------------------------------
                       what the base budget buys
    Broadly, the base budget breaks down into several major 
categories--balanced between people and equipment, and between current 
and future needs. For 2008, those categories, and their amounts, are:

                          [Dollars in billions]
------------------------------------------------------------------------
                                              Amount          Percent
------------------------------------------------------------------------
Readiness and support \1\...............        ($146.5)              30
Strategic modernization \2\.............         (176.8)              38
Military pay and healthcare \3\.........         (137.0)              28
Facilities \4\..........................          (21.1)               4
------------------------------------------------------------------------
\1\ Readiness and support is about the ability to provide warfighting
  capabilities whenever and wherever the Nation needs them: Readiness
  $65.9 billion; Base operations and recruiting $59.9 billion; Maintain
  equipment and buildings $18.2 billion; Commissaries $2.5 billion.
\2\ Strategic modernization is based on a long-term view of the
  capabilities required to succeed against current and possible future
  adversaries: Navy and aircraft $62.4 billion; aircraft and satellites
  $50.9 billion; ground capabilities and support systems $37.8 billion;
  research and development to include science and technology, and
  chemical and biological defense $16.8 billion; Missile Defense Agency
  $8.9 billion.
\3\ The military pay and healthcare category is about taking care of our
  military and their families. It includes pay for the 1.3 million
  active component and 0.8 million reserve component members $98.3
  billion; and one of the best health care systems in the world, for
  military and dependents $38.7 billion, which reflects a -$1.9 billion
  adjustment for anticipated savings for DOD's sustaining benefit
  proposal.
\4\ Facilities costs include: Family housing $2.9 billion; BRAC
  implementation $8.4 billion; Operational and training facilities,
  troop housing, and base infrastructure $9.8 billion.

    This base budget request includes an increase of $49.4 billion over 
the enacted budget for fiscal year 2007. Some of the top priorities are 
as follows:
    The Department's top priority--and our greatest asset--is our 
people. America continues to be blessed that in every generation, brave 
men and women have stepped forward to serve a cause higher than 
themselves. The Department responds by continuing to support a high 
quality of life for our servicemembers. Almost one-third of the base 
budget is allocated to taking care of our men and women in uniform, and 
their families.
    The Department's success in this regard is reflected in the 
services' ongoing ability to meet recruiting and retention goals.
    AC recruiting.--All four services met or exceeded recruiting goals 
throughout fiscal year 2006, and have continued to do so through 
January 2007. AC recruiting as a percent of goal, over time:

----------------------------------------------------------------------------------------------------------------
                                Fiscal year       Oct. 2006        Nov. 2006        Dec. 2006        Jan. 2007
                                   2006
----------------------------------------------------------------------------------------------------------------
USA.........................             101              108              105              123              111
USN.........................             100              100              100              100              100
USMC........................             100              101              104              110              108
USAF........................             100              100              100              100              100
----------------------------------------------------------------------------------------------------------------

    RC accessions.--In January 2007, four of six components exceeded 
their goals:

----------------------------------------------------------------------------------------------------------------
                                    Fiscal year
                                       2006          Oct. 2006       Nov. 2006       Dec. 2006       Jan. 2007
----------------------------------------------------------------------------------------------------------------
ARNG............................              99             123             113             119             101
USAR............................              95              98              79             102              99
USNR............................              87              87              91              80              93
USMCR...........................             100             102             102             104             102
ANG.............................              97             117             115             105             103
USAFR...........................             106             100             100             105             103
----------------------------------------------------------------------------------------------------------------

    AC retention.--In January 2007, AC retention was solid--USAF and 
USMC are meeting or exceeding overall retention missions. USA is 
exceeding its year-to-date mission; while USN met 93 percent of its 
mission.
    RC attrition.--For the most recently available month, December 
2006, attrition in all reserve components was well within acceptable 
limits--as it has been since at least the beginning of fiscal year 
2006.
    Though not directly reflected numerically, recent policy changes 
concerning the use of the Guard and Reserves will allow servicemembers 
more predictable mobilization schedules--and more time with their 
families--also directly improving quality of life.
    New in this budget request is support for increasing the permanent 
endstrength of the Army and Marine Corps. Recently, the President 
announced the plan to increase the total ground forces by 92,000, by 
fiscal year 2012. The Army will grow from 482,400 to 547,400, and the 
Marine Corps from 175,000 to 202,000. The Department adds $12.1 billion 
in the fiscal year 2008 base budget to support the first step--an 
increase of 7,000 soldiers and 5,000 marines. Based on a continuing 
need for military forces, the endstrength increase will improve the 
ratio of time spent deployed versus time at home, in turn reducing 
stress on individuals and families.
    The increase in requested funds to improve readiness and support--
$16.8 billion more than enacted for fiscal year 2007--reflects lessons 
learned from current engagements about the changing nature of warfare 
and the need to be better prepared for it. Almost half of the requested 
increase will support training--increased full-spectrum training; 
combat training center rotations; sustained air crew training; and 
increased steaming days for ships.
    The increase in funds for readiness and support will also support 
the Department's move toward greater net-centricity--a system of 
networks and approaches designed to make information available to 
whomever needs it, wherever they are, in real time. This is an integral 
part of the Department's approach to 21st century warfighting.
    The single largest category in the base budget request is strategic 
modernization--making sure the Department has the weapons systems 
needed, in every domain--ground, air, maritime, space and cyberspace--
to meet the full array of emerging security challenges. Major 
investments in these domains, in fiscal year 2008, include:
  --Future Combat Systems ($3.7 billion).--FCS, including unmanned 
        aerial vehicles, manned and unmanned ground vehicles, and other 
        linked systems, is the Army's first comprehensive modernization 
        program in a generation. This is the Army's way forward.
  --Joint Strike Fighter ($6.1 billion).--This international program 
        provides the next-generation strike aircraft in three variants 
        designed to meet the different needs of the Air Force, the 
        Navy, and the Marine Corps, and our friends and allies. The 
        program includes international partnerships with 8 countries--
        based on shared investment, full interoperability, and thus a 
        concrete, shared stake in the future.
  --Shipbuilding/Joint Maritime Capabilities ($14.4 billion).--The 2008 
        request supports the Navy's long-range shipbuilding plan, 
        designed to produce a versatile 313-ship Navy by 2020. The 
        increase of $3.2 billion over last year primarily supports the 
        next-generation aircraft carrier, the CVN-21; and the LPD 17 
        amphibious transport ship. (The $14.4 billion includes Army 
        funding for the Joint High Speed Vessel.)
    The base budget is currently under relatively greater pressure than 
in past years, because the average age of equipment is rising. In 
fiscal year 2006, the average age of nuclear attack submarines was 
about 18 years; of the Air Force's strategic airlift--15 years; of 
tactical fighters--20 years; of tactical airlift--26 years. It is 
important to address some of these issues now, since older equipment, 
as a rule, costs more to maintain and has lower operational 
availability.
    One of the most critical recapitalization challenges is the Air 
Force's KC-135 tanker fleet, whose current average age is 45 years. The 
Air Force has announced a competition to replace this aircraft with the 
KC-X, which will be able to carry cargo and passengers, and comes 
equipped with defensive systems. This platform is the Air Force's 
number one acquisition priority, essential for total force global 
operations.
    The end of the Cold War changed the calculus concerning the primary 
missile threat the United States faces--but in an increasingly 
proliferated world, the threat is more multi-faceted and less 
predictable than ever before. The United States is deeply concerned 
about missile developments in North Korea and Iran, and wary of China's 
recent use of ballistic missile technology to destroy space assets. 
Many other countries have or are seeking ballistic missiles.
    The missile defense ``good news story'' is that with support from 
the Congress, the Department has already fielded an integrated missile 
defense capability that continues to get stronger and more effective. 
International missile defense cooperation with the United States 
continues to grow--in Europe, Asia and the Middle East. This budget 
request seeks $9.9 billion to continue that progress.\2\
---------------------------------------------------------------------------
    \2\ Includes $8.9 billion for the Missile Defense Agency; $0.6 
billion for Patriot PAC-3; $0.4 billion for Patriot/MEADS CAP.
---------------------------------------------------------------------------
    In today's security environment, no single nation can successfully 
meet all the challenges alone. A critical part of the Department's 
strategic vision--highlighted in the 2006 Quadrennial Defense Review--
is the importance of international partnerships. The Department is 
vigorously engaged in updating long-standing alliances, and reaching 
out to new partners around the world. NDAA 2007 provided a very helpful 
catalyst for this effort, in the section 1206 authority for the 
Departments of Defense and State to train and equip partner nations' 
forces. The 2008 base budget request includes $500 million in dedicated 
funding for this critical initiative.
                    what the 2007 supplemental buys
    Before the Congress are two requests to fund war costs--the fiscal 
year 2007 Emergency Supplemental Appropriation request, and the fiscal 
year 2008 global war on terror request. They cover similar substantive 
ground--in three major categories: continuing the fight, increasing 
ground forces, and accelerating reconstitution.
    The 2007 Emergency Supplemental request breaks down this way:

                        [In billions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Continuing the Fight \1\................................            65.0
Ground Forces \2\.......................................            10.9
Reconstitution..........................................            13.9
Non-DOD Classified......................................            3.6
------------------------------------------------------------------------
\1\ Operations $39.3 billion; Force Protection and IED Defeat $10.4
  billion; Military intelligence $2.7 billion; Security Forces $9.7
  billion; Coalition Support and CERP $1.5 billion; Military
  Construction $1.1 billion; Regional War on Terror $0.3 billion.
\2\ Accelerate Brigade Combat Teams and Regimental Combat Teams $3.6
  billion; Grow the Force $1.7 billion; U.S. Forces ``plus up'' $5.6
  billion.

    The Department's single greatest focus for our deployed men and 
women is force protection. Today, the single deadliest threat to our 
forces comes from Improvised Explosive Devices (IEDs). The terrorists 
who use them are highly creative and adaptive, they make use of 
relatively unsophisticated technologies to deadly effect, and they 
share ``lessons learned'' in real time. The Department is grateful for 
the support from Congress to date that has allowed the very rapid 
development and fielding of counter-measures. It remains critically 
important to continue this investment.
    The most critical element of the supplemental request is 
reconstitution--repairing and replacing equipment destroyed, damaged, 
or otherwise stressed from the demands of warfighting, to restore DOD 
inventories. When equipment is lost, the Department has a methodology 
for replacing it--with the latest appropriate model, not with something 
obsolete. The 2007 supplemental includes these costs.
    This 2007 supplemental request includes funds for the ``plus up'' 
of U.S. forces deploying in support of Operation Iraqi Freedom. As the 
President has described, the additional forces are part of the Nation's 
new way forward in Iraq. As the incoming commander of Multi-National 
Forces-Iraq recently testified, their success will depend not only on 
their numbers, but also on their partnership with their Iraqi 
counterparts. The total cost of the ``plus up'' is projected to be $5.6 
billion. Costs include supporting the deployment of five brigade combat 
teams and an enhanced naval presence. This estimate may be increased by 
additional support troops, depending on commanders' needs.
    America's most direct partners in building stable and secure 
environments in Iraq and Afghanistan are the security forces--the 
military and the police--of those two countries. Ultimately, they and 
their political leaders bear the responsibility for establishing 
conditions for peace and prosperity, including standing up sufficient 
forces to assume security responsibility for their countries. The 
United States plays a supporting role--through training, equipping, 
mentoring and helping to sustain those forces.
    Substantial progress has already been made. In Iraq, for example, 
well over 300,000 Iraqi security forces have been trained and equipped, 
and Iraqis have assumed full security responsibility for 3 of 18 
provinces. Next steps include enhanced embedding of U.S. forces to help 
increase Iraqis' ability to assume full control of security. In 
Afghanistan, one of the most important elements of the strategy to 
counter the Taliban and Al Qaeda is ensuring an indigenous Afghan 
capability to conduct independent counter-insurgency operations. The 
2007 supplemental request seeks $3.8 billion for further support to the 
Iraqi security forces, and $5.9 billion for the Afghan security forces.
    Successful counter-insurgency requires the application of all 
instruments of national power--there is no exclusively military 
solution. Economic development and security are two sides of the same 
coin--in the short term, you need security to get the economy going; 
while in the long term, you can't have security without economic 
development. In the early days of Operation Iraqi Freedom, commanders 
on the ground recognized the importance of helping to jump-start the 
local economy. The Commanders' Emergency Response Program (CERP) 
provided limited but immediately-available funds, to make a concrete 
difference in people's daily lives. Many commanders considered CERP the 
most powerful tool in their arsenal. This fiscal year 2007 supplemental 
request includes $456 million to continue CERP.
    One very important caveat: It is vitally important to the 
Department that the fiscal year 2007 supplemental be approved by 
Congress in a timely manner. By mid-April, if the request is not 
approved, the Department will need to begin reprogramming other funds--
with all the associated disruptions to other efforts.
                    what the 2008 gwot request buys
    The fiscal year 2008 global war on terror request, for $141.7 
billion, covers similar requirements, and will continue past the fiscal 
year 2007 supplemental.
    The GWOT Request breaks into the following major categories:

                        [In billions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Continuing the Fight \1\................................            96.6
Ground Forces \2\.......................................             1.6
Reconstitution..........................................            37.6
Non-DOD Classified......................................            5.9
------------------------------------------------------------------------
\1\ Operations $70.6 billion; Force Protection and IED Defeat $15.2
  billion; Military intelligence $2.7 billion; Security Forces $4.7
  billion; Coalition Support and CERP $2.7 billion; Military
  construction $0.7 billion.
\2\ Accelerate Brigade Combat Teams and Regimental Combat Teams $1.6
  billion.

    The GWOT request devotes $15.2 billion to continue force protection 
efforts--including technology to disrupt attacks, vehicles with V-
shaped hulls to better withstand blasts, and a new generation of body 
armor.
    Successful counter-insurgency efforts in Iraq and Afghanistan, and 
more broadly in the war on terror, continue to require the closest 
possible partnership with host nations, and the application of the full 
spectrum of political, economic and security tools. The GWOT request 
includes $4.7 billion to continue the establishment of Iraqi and Afghan 
Security Forces, and nearly $1 billion for the CERP program.
                               conclusion
    The Department recognizes that the three requests before the 
Congress represent an enormous amount of the taxpayers' money. The 
Department also recognizes its fiduciary responsibility to spend those 
funds wisely. Detailed supporting data and rationale have been provided 
for each dollar requested, and staff from the Military Departments and 
from the Office of the Secretary of Defense are available for 
discussion and clarification.
    Lastly, the Department is actively improving its processes to be 
more efficient and effective in all of its activities.
    Chairman Inouye, Senator Stevens, thank you for your support of our 
men and women in uniform. And thank you to each member of this 
subcommittee, for your support for all the brave men and women who wear 
the cloth of this Nation. We look forward to your questions.

    Senator Inouye. Would the others wish to testify? Ms. 
Jonas.
    Ms. Jonas. I have no statement, sir.
    Senator Inouye. Admiral Giambastiani.
    Admiral Giambastiani. No statement, sir.
    Senator Inouye. Then, if I may, I'd like to begin.

                               RECRUITING

    Mr. Secretary, the Department recently announced to 
increase the permanent end strength of the Army and the Marine 
Corps, and so you put on additional pressure to achieve a high 
recruiting and retention level. This budget provides $2.7 
billion for recruiting bonuses and retention incentives. Do you 
believe that this is sufficient to bring up the end strength 
results?
    Mr. England. Mr. Chairman, we do. We have met all our 
services for 18 months running in terms of our recruiting, and 
so we are increasing the Army by 7,000 and the Marine Corps by 
5,000 a year. Our retention is very good, our recruiting is 
very strong, and, in fact, it's above our objectives here in 
the last few months.
    So, yes, we do believe that that is adequate, and both the 
Army and the Marine Corps are confident that they can grow the 
force by that 7,000 and 5,000 a year that we have projected in 
the budget.
    Senator Inouye. Because the talk on the street is that 
recruiting hasn't been as good as anticipated. Is that correct?
    Mr. England. Mr. Chairman, not my understanding. I mean, 
all the data I have looked at is that recruiting continues to 
be very strong. The Army is actually ahead of where they 
thought they would be this year in terms of the manpower, so we 
actually start out this year better than we thought in terms of 
growing the force.
    So the data I have available, that's not the case, Mr. 
Chairman. The Army is doing very, very well, and they have for 
18 months. Marine Corps meets their objective every time. I 
believe the only case where we are down at all is, Navy Reserve 
is down slightly, but as you know the Navy has also been 
decreasing the size of the force, so that's sort of a corollary 
to that decrease. Otherwise, all the recruiting and all the 
retention numbers remain very high.
    Admiral Giambastiani. If I could just add to that, Mr. 
Chairman----
    Senator Inouye. Admiral.
    Admiral Giambastiani [continuing]. Recruiting is tough 
every day, but I agree completely with the Deputy Secretary 
that we have sufficient resources and we've put sufficient 
personnel and the budget figures are sufficient to be able to 
allow us to do what we're doing to increase the size of the 
Army and the Marine Corps.
    Senator Inouye. Well, I had this question because the 
Congressional Research Service (CRS) indicated that in fiscal 
year 2006 the Army fell 9 percent short, and this was a 6 
percent drop from the previous year, but you're satisfied?
    Mr. England. Yes, sir, we are. Again, all my data says the 
Army and Marine Corps are both doing very well in terms of 
their recruiting and retention, and we've seen no slack in 
there. I mean, frankly, it is hard because the number of youth 
available is relatively small in terms of meeting the criteria 
for the military, but so far, God bless America, we've had 
great Americans willing to serve, and that continues.
    Admiral Giambastiani. Mr. Chairman, I believe that fiscal 
year 2006 is the largest and most successful year of Army 
recruiting in about 15 years. It's the largest number we've 
brought in. In fact, what the Chief of Staff of the Army likes 
to say is that they have recruited essentially the entire 
Marine Corps, between the Army active forces, Army Reserve, and 
National Guard, when you put them all together--almost 180,000.

                                  C-17

    Senator Inouye. Well, Mr. Secretary, your budget appears to 
begin shutting down the C-17 production line. It appears that 
there are several new factors affecting that decision: the 
increases in the Army and Marine Corps end strength; spiraling 
costs in the C-5 reengining; and the possible creation of a 
dedicated naval C-17 fleet. In the absence of new studies on 
the strategic lift requirement, are you certain that closing 
the C-17 production line is a wise course of action?
    Mr. England. Mr. Chairman, we will take a look again based 
on the increased size of the force, but the last study we 
conducted, we added one airplane last year, but in total 
between the Congress and ourselves the number of airplanes went 
up by 10 last year, so we are now 10 above or 9 above where our 
studies indicated, which I believe was 181 airplanes for C-17s 
as a result of the study. So we're now at about 190 airplanes, 
about 10 above that study.
    My expectation is, that's going to be more than adequate 
along with the C-5A upgrade, and the C-5 upgrade is proceeding 
well at this point. So it's probably a valid question, at least 
to take a look one more time based on a larger force, to make 
sure that we can handle that, and we will go back and update 
that study just to make sure. But we now have about 10--we now 
have authorized 10 C-17s more than the study last year 
indicated we would need for the force. But we will take a look 
at it based on the increased size of the force.
    Senator Inouye. Mr. Secretary, excuse me. I've got a cold. 
You have requested $111 million for the North Atlantic Treaty 
Organization (NATO) C-17. What is the status of negotiations 
with NATO on buying and supporting and operating C-17s?
    Mr. England. Mr. Chairman, still ongoing. We have I believe 
at this point three and one-half airplanes committed, including 
the one airplane that the United States would commit to. We 
were looking for four airplanes that would be available under 
NATO markings, so all the NATO member nations would have so 
many hours per year, that is so that a nation would not have to 
buy a whole C-17 but they could buy flying hours, like 500 
hours a year or some number.
    So we now have a number of nations, and that consortium is 
at three and a half airplanes. On the other hand, we have had 
some frankly problems in getting this implemented with NATO 
because of resistance of a few of the countries in NATO, so we 
continue to work this.
    It is very important because the one shortcoming of NATO is 
strategic lift, so if we can get through this hurdle with NATO, 
then we do provide a capability in Europe of strategic lift, 
and it does ease the pressure somewhat on us, where now we have 
to provide a lot of the strategic lift whenever those forces 
are moved into theater. So this is a very good way to get NATO 
involved, a very good way for NATO to have a capability, but 
the answer is we're still in that negotiation, Mr. Chairman. We 
don't have that as a clear way ahead yet, but we're still 
working it.
    Senator Inouye. Well, do you have a level of confidence it 
will happen?
    Mr. England. Yes, sir, I do have a level of confidence. 
I'll tell you we've worked this very hard because it's so 
important in NATO. There's just specifically two countries that 
have been resisting this. We believe that we have a way ahead. 
In fact, we just had discussions yesterday and the day before 
on this subject. So I believe we will have a way ahead on this, 
and it is an important initiative for us and for NATO.
    Admiral Giambastiani. Mr. Chairman, if I could just add to 
that----
    Senator Inouye. Yes, sir.

                   NORTH ATLANTIC TREATY ORGANIZATION

    Admiral Giambastiani [continuing]. From the military side, 
having been a NATO Supreme Allied Commander, General Jones and 
I worked very hard to describe the military requirement of this 
side, and frankly the alliance is very strong on the need for 
strategic airlift and the ability to come up with any way to 
make this happen. In this case the consortium is very welcome 
by essentially all the militaries inside NATO.
    I'm speaking as a former commander now, and I would just 
tell you that I see great things for this because it will give 
NATO a capability we simply do not have. I would also add, 
though, that there are one or two other countries who are part 
of this consortium that are not NATO members. Sweden is an 
example of that. So there are other members who want to buy 
hours, if you will, within the consortium. Thank you.
    Senator Inouye. Than you very much.
    Mr. Secretary, I have many other questions, but as you can 
see, it is difficult for my voice, so may I call upon the vice 
chairman?
    Mr. England. Please.
    Senator Stevens. Well, thank you, Mr. Chairman.
    Mr. Secretary, I share the chairman's concern over the C-
17. Neither one of us have production in our State, but we have 
sort of a personal feeling about this because we remember that 
that plane was almost killed by the other three defense 
committees, and we believed it should be our next generation 
cargo plane. Now, do you have a follow-on for the C-17 in the 
works?
    Mr. England. No, sir, we don't. C-17 of course will last us 
a long time. Senator Stevens, I mean, at some point we do have 
to stop the production of the airplane, and all of our analysis 
supported 180 airplanes. We're now 10 above that. We have some 
going to NATO, hopefully another four or so. Some other 
countries have bought some C-17s. So the question is, when do 
we have enough?
    We are modifying the C-5. There are some advantages to C-5 
because it takes outsize cargo that a C-17 does not carry, so 
they're complementary in some respects, and of course we're 
investing heavily in that upgrade program.
    The question is, when do we stop production? All the 
analysis indicates that we have a sufficient quantity but, as I 
indicated to the chairman, based on the fact that the force is 
growing, we will take a look at that study and update it. But 
at some point we do have to, even if we were to continue, I 
mean, at some point we do end up with a sufficient number of 
airplanes. And if we keep putting money into C-17s, then 
frankly money comes out of some other investment category, and 
so we always have this tradeoff in terms of what's the greatest 
priority need. That was our decision last year, but again we'll 
look at it based on a larger force.
    Senator Stevens. Well, the C-5 has been up and down, had to 
be rewinged and reengined and a lot of other things, and I 
understand why you're keeping it as a fallback for outsized 
equipment, but when we're facing the situation we are now where 
we're going to bring, what, 60,000 troops back to the 
continent? Actually, with the increase in end strength the 
numbers will be at least 90,000 more, as I understand. The 
whole concept of our military policy now is rapid deployment by 
air, no matter where they go in the world.
    I just share the fear about closing that line down, it 
wouldn't be too easy to reopen it. Maybe we ought to ask for a 
classified briefing from you in terms of what you see in the 
future as far as the need for air transport for the total 
force. It's just a worrisome thing.

                      BASE REALIGNMENT AND CLOSURE

    As we talk about this return to the continent, what's going 
to be the situation with regard to overseas base realignment 
and closure (BRAC) now if those folks are in fact coming back? 
Have the overseas expenditures for military construction been 
reduced sufficiently so that we can bring some of that money 
back home, and get ready to have these people brought back to 
the continent?
    Mr. England. Tina, do you know dollars BRAC overseas?
    Ms. Jonas. Sir, I don't have an exact figure on the 
overseas BRAC for you, but I will say that the reduction of the 
$3.1 billion in the continuing resolution is a problem for the 
Department. We do not yet have a way forward on that. We're 
going to have to work with the Congress on that.
    It will affect forces coming home from Europe. Fort Bliss, 
for example, is one of the bases that forces will be coming 
home. So this will be difficult, and I know Phil Grone, who 
does our Installations and Environment, is looking very 
carefully at the implications of the funding resolution.
    Senator Stevens. Well, that was going to be my next 
question about the BRAC $3.1 billion. I don't think we have a 
guarantee, but we have sort of an understanding as the 
continuing resolution went through without amendment, that that 
money would be considered to be replaced in the supplemental. I 
hope that it is. We have some, even in Alaska, which is being 
delayed now because of the reshuffling of that money.
    But again, as I understand it, this whole reshuffling is 
going to be over in at least 3 years. Is that right? 
Repositioning back to the continental United States (CONUS), 
I'm talking about.
    Mr. England. We are, but at the same time we're also 
forward deploying other forces, so you know we have other 
forces moving to Guam, we have troops moving out of Japan into 
Guam. We have submarines moving into Guam. So there's other 
forces moving. So I'll have to get back and look at the entire 
overseas BRAC for you, because there are forces coming out of 
Europe. There's also forces moving in other areas, which is 
expensive when we move other forces forward. So I will get back 
with you on those specific details.
    For the $3.1 billion, I appreciate your comment about 
adding that $3.1 billion to the supplemental, because that is 
critical to us, that $3.1 billion. I mean, there are plans in 
the Army, when they move personnel back, this is, the whole 
BRAC as you know is an interlaced process. I mean, programs 
largely do not stand alone. They actually are all 
interconnected.
    And so when we disrupt the BRAC by taking out funding, that 
causes a lot of disarray for us. So it would be extraordinarily 
helpful if the subcommittee could help address that $3.1 
billion, because that will be a significant issue for us as we 
go forward if that $3.1 billion is not replaced.
    Senator Stevens. As we went over and looked at Aviano and 
the Army base in Italy where you're moving those people from 
Germany down there, and also the new upgraded air base in 
Turkey, we sort of envisioned that new alignment along the 
northern shore of the Mediterranean. All of that is BRAC, 
right? That's taking a considerable amount of money for those 
moves, isn't it? Is that in this budget?
    Mr. England. Senator Stevens, as Tina let you know, I just 
have to get back with you on that, Senator Stevens. We'll get 
an appointment, get the whole BRAC, overseas and domestic, 
together for you related to the 2008 budget. I just don't know 
specifically, but we will get back with you on that.
    Senator Stevens. Well, the reason for my question, it looks 
like this is all taking place in the same timeframe, bringing 
people back here and moving people overseas to different 
places. That's a substantial increase in BRAC over a period of 
4 years. I don't see it reflected here. I would appreciate it 
if you could give us a statement for the record.
    Mr. England. Yes, we'll definitely get back with you, 
Senator Stevens.
    [The information follows:]

    While BRAC and global defense posture realignment are 
mutually reinforcing efforts, overseas force posture changes in 
host nations like Germany, Italy, Japan, and Korea are not part 
of the BRAC process. The funds to implement these posture 
changes reside in our traditional Military Construction and 
Operations and Maintenance accounts and are part of the 
President's budget request for fiscal year 2008 (PB08). There 
is $953 million of Military Construction, Army, budgeted or 
programmed in the period fiscal year 2006 through fiscal year 
2013 to support global restationing, including $73.6 million 
requested in fiscal year 2008.
    Additionally, global posture has a BRAC 2005 component for 
construction of facilities in the United States to accommodate 
movement of forces from overseas. The fiscal year 2008 budget 
request identified $2.9 billion across implementation (fiscal 
year 2006-fiscal year 2011) to support the BRAC component of 
global posture.

                                 BUDGET

    Senator Stevens. Last, as I understand it, the 
authorization bill gave authority to the Department to train 
and equip counterterrorism forces in foreign military 
organizations. Can you tell us about that? What is the 
Department going to do with its authority to support 
counterterrorism capability of our allies?
    Mr. England. I believe this is a 1206 authority--Tina, do I 
have it right--which is, I believe, $500 million in the budget 
for that purpose, so we do have $500 million in the budget, 
what we call 1206 authority, being requested in the fiscal year 
2008 budget specifically to train and equip forces friendly to 
the United States in counterinsurgency operations. So there's 
$500 million, Senator Stevens, in the budget for that purpose.
    Senator Stevens. Does it identify the units that are going 
to be so equipped and trained? Admiral?
    Admiral Giambastiani. If I could, Senator Stevens, this 
money, the drawdown authority on this money, the countries that 
we would do this for are being recommended by each of our 
combatant commanders. For example, there are initiatives where 
Central Command would talk about Pakistan. There are specific 
commands. You have recommendations for countries like Thailand 
and others.
    So what I would tell you is, each of these initiatives has 
a specific tie to counterterrorism. One of the initiatives was 
to put radars, for example, to assist the local countries in 
the Straits of Malacca. This would help us significantly to 
follow maritime traffic, help the countries there locally. 
These are the types of examples, but we've got significant ones 
across the world.
    Senator Stevens. Does that include giving them Predators 
and things like that?
    Admiral Giambastiani. Generally, no, sir. Generally, that's 
done under a different authority.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary, thank you, and Ms. Jonas and Ambassador--
excuse me--Admiral. Thank you for being here.
    Mr. England. He would make a good Ambassador, though, too.

                                 B-52S

    Senator Dorgan. Let me ask about the B-52s, which will not 
surprise you perhaps. We have 76 after the attrition reserve 
are all gone, and the Congress has instructed the Pentagon that 
that's the number that you must keep at this point. You, 
however, budget for only 56 in your budget.
    The initial 30 days of combat in Iraq, I recall the Air 
Force used more than 80 B-52s so it could sustain a deployed 
force of 42 at forward operating bases. Obviously they couldn't 
repeat that if they go to 56 B-52s. What I hear from the 
Pentagon is that the F-22 and the B-2 will go in and kick down 
the door with air power, and that is the case, I believe that's 
the case with those planes.
    And there's no better bomb truck around for the next couple 
of decades than the B-52, fully paid for, so I do not frankly 
understand the Pentagon's recommendation to go from 76 to 56 B-
52s when the Congress has indicated it wishes and insists on 
76.
    I would also observe that a new bomber is scheduled to come 
on, at the very earliest, 2018. Most of us understand it's more 
likely to be 2020 or 2024, so you're talking about 15 years 
perhaps or more for a new bomber, and we're going to move B-52s 
that are fully paid for and capable for at least three decades 
in addition to their service, long service, we're going to move 
them to Davis-Monthan, to the boneyard? It doesn't make sense 
to me. Can you explain to me what the thinking of the Pentagon 
is?
    Mr. England. Senator, actually I can't give you the detail, 
but I can tell you I know the Air Force across the board has 
been trying to retire some of their older airplanes so they can 
afford to recapitalize. So this is the issue that we have, 
frankly, in a number of areas, that is the cost of maintaining 
older airplanes which get to be very, very expensive. And so if 
we keep those long tails, then we utilize the funds that we 
could otherwise put into the new bomber.
    So, I mean, I believe this is a dilemma the Air Force is 
in. I'll have the Air Force address this directly with you. But 
frankly it's just the dilemma we have in terms of trying to 
maintain older equipment versus transition to new designs.
    Senator Dorgan. And I've spoken to General Moseley about 
this subject, but my sense is that the Air Force, I guess at 
the direction of the Pentagon, is going to create a bomber gap. 
Quite clearly the Air Force, if they retire this number of B-
52s beyond which the Congress said we're going to allow you to 
retire, the Air Force clearly could not do what they did with 
Operation Iraqi Freedom. They could not have 80 B-52s for 
forward deployment in order to be able to have 42 operational 
at forward locations.
    So I'm very concerned about that. I would hope you'll take 
a hard look at it. We have enough trouble funding new weapons 
programs, and we shouldn't be moving those that are fully paid 
for over to Davis-Monthan and put them in storage at a time 
when we need them in the fleet. So I will follow up again with 
General Moseley. He'll be here at some point.
    Mr. England. I will, too. And I think, Admiral, do you have 
some information?

                                 BOMBER

    Admiral Giambastiani. Yes, if I could. Senator, one of the 
reasons why from a military side we took a look at this and, if 
you will, reviewed the situation of the bomber inventory--and 
by the way, I'm a bomber proponent myself--is that we are 
shifting to small diameter bombs in addition to all of the 
larger pieces of ordnance. In fact, in our budget for 2008 we 
have a sizeable number of small diameter bombs being picked up. 
These are the 250 pounders that frankly have got some smartness 
built into them.
    The reason why that's significant is that you can carry 
many more pieces of ordnance, because of the size of these and 
the precision with which we can deliver them. So each platform 
that we have actually brings much more capability than we could 
before, so the numbers of platforms that we would need is 
reduced because of this increased capability that we bring on 
the weapons side. So there's a balancing act here between the 
number of platforms and the number of weapons that we would put 
on each one, but I'll get back to you.
    Senator Dorgan. I appreciate that.
    [The information follows:]

    The reduction in B-52s was taken in order to divest legacy 
aircraft for the purposes of modernization and 
recapitalization. The U.S. Air Force can still meet and exceed 
combatant command B-52 requirements for any single major combat 
operation (MCO). The risk associated with two near-simultaneous 
MCOs is increased, but within acceptable levels for the near 
term. The Air Force comprehensive plan for modernization and 
recapitalization outlines the prudent investments necessary 
today to avoid future capability risks.
    The Air Force also has a three-phase, long-range strike 
plan that modernizes the remaining legacy bomber fleet, fields 
a fleet-augmenting, long-range strike platform in the 2018 
timeframe, and develops a transformational long-range strike 
platform in the 2035 timeframe. In addition, the Institute for 
Defense Analysis has been tasked by Congress to examine the 
amount and type of bomber force structure required to 
accomplish the National Security Strategy.

    Senator Dorgan. Let me just say in last year's legislation 
you are not allowed to move the attrition reserves until you 
give us the study that we requested, and I don't think the 
study can be completed without showing that there is a bomber 
gap. I understand your point about platforms, but I also 
understand what the Air Force is talking about with respect to 
global initiatives and what they feel they need to do. And I'm 
just saying I've talked to a lot of experts. This doesn't add 
up when you get to 56.
    So I'd like to ask one additional question and then ask 
about two personnel issues very quickly. The $141.7 billion in 
fiscal year 2008, is that designated as emergency?
    Mr. England. I guess I'm not quite sure, but I guess it is 
designated because it's not in the base budget. So the request 
was, as I understand, Senator, Congress asked that we provide 
forward-looking cost of war and to have that available when the 
budget was submitted. So we basically took an extension, 
because looking ahead a year is hard to do, so we took our 
fiscal year 2007 and projected it forward.
    Frankly, it could go up or down. Not knowing, we pretty 
much have taken the fiscal year 2007, projected it in fiscal 
year 2008. So that's what the $141.7 billion is. But recognize, 
as we get closer and as conditions on the ground change, the 
number could go up or down because we're basically looking a 
year ahead when we put these numbers together.
    Senator Dorgan. The reason I asked the question, it seems 
to me emergency designations are things that one didn't 
anticipate, but if we can anticipate next year what that cost 
will be, I wonder if we shouldn't be paying for this? If we 
sent the soldiers to fight, I wonder if we shouldn't as a 
country pay for it, rather than designate it as an emergency? I 
just make that point.

                             MEDAL OF HONOR

    Mr. Secretary, let me mention two other quick items.
    One, there is a request that has been pending for nearly 1 
year, previously approved by the Secretary of the Army, and I 
raise this because I watched on television last evening or I 
guess two evenings ago the presenting of a Medal of Honor. 
There is an American Indian named Woodrow Wilson Keeble, a 
remarkable, remarkable soldier, fought in the Second World War 
and in the Korean War, and the description of a battle in the 
Korean War was an unbelievable description.
    I have never known him, but at any rate, it had been 
submitted well after the Korean War that he receive the Medal 
of Honor. All of that information has been digested, went up to 
the Secretary of the Army. He actually recommended a Medal of 
Honor based on the facts of the battle in the Korean War. It 
has now been sitting at the Secretary's level for almost 1 
year. Would you be willing to look into that at this point? It 
does require the Secretary's approval, but it has been approved 
by the Secretary of the Army.
    Mr. England. Senator, I will. Actually, it has come to my 
attention a couple of requests like that are in OSD, so I've 
actually started to make inquiries as to why they haven't made 
their way to the Secretary, because ultimately it goes to the 
Secretary of Defense and then with his recommendation goes to 
the President of the United States for a final decision. I will 
definitely look into it. It's of interest to me also, and I'll 
follow up for you, sir.
    Senator Dorgan. I appreciate that.
    [The information follows:]

    Members of Congress introduced legislation during the week 
of March 26, 2007 to waive the period of time limitations for 
submission of the Medal of Honor (MOH) award recommendation for 
the late Master Sergeant Woodrow Wilson Keeble. This 
legislation enables the President to consider, and, if 
warranted, award the MOH to Master Sergeant Keeble.

    Senator Dorgan. I want to make just two other comments, Mr. 
Chairman. I know others want to make a comment.
    Mr. Secretary, you know you and I have had breakfast 
together. I have great admiration for your service, thought you 
did a great job as Secretary of the Navy and I'm glad that you 
are where you are. But I do want to just mention two issues.

                            CONTRACT ISSUES

    One, I'm going to ask for the inspector general to take a 
look at it, and that is a personnel issue. National Defense 
University gave a contract, which was cancelled I think 1 month 
later, for Mr. Feith, a $500,000 contract over 4 years for Mr. 
Feith from the National Defense University. And as I looked at 
this contract, the identical words were used in the contract 
solicitation as were used by Secretary Rumsfeld in the going 
away ceremony for Mr. Feith.
    It seems to me that there almost had to be collaboration in 
the preparation of the solicitation for the job and the remarks 
that were used at the going away ceremony, and I'm going to ask 
the inspector general just to look at that. The contract was 
cancelled several days after the press asked about it, but as I 
have dug through this, there's something wrong here, and I just 
wanted to tell you. You're not in a situation where you would 
know about it or be responsible for it, but I did want to 
mention that, that I'm going to ask for the inspector general 
to look at it.
    One final point. I did call you about Bunnatine Greenhouse. 
I did that because I'm very concerned about the contracting 
abuse that has occurred in some areas. She was the highest 
ranking civilian official in the Corps of Engineers.
    She said the contracting abuse, I believe it was on the RIO 
or the LOGCAP, I believe the LOGCAP contracts, the contracting 
abuse was the most blatant abuse she has seen in her career. 
For that, she was demoted. There have now, of course, legal 
activities been going on for some while, and she doesn't have 
any duties, yet she is still there, having been demoted for 
telling the truth. I believe she told the truth because I have 
dug into that at great, great length.
    Others in this town who worked when she was the highest 
ranking contracting official, others who worked outside, have 
told me she was one of the finest contracting officials we ever 
had, but she told the truth about some problems with 
contracting and as a result, over at the Corps of Engineers the 
old boys network decided that she was going to pay a price for 
it, and she has paid a very heavy price in her career.
    And I've called you about that. I do hope that there is a 
message sent here someplace, that we need the truth, all of us 
do: the American public, the Congress, and certainly you in 
your responsibility in the Department of Defense.
    But having said those things, let me again tell you I 
appreciate you, Secretary England, have always appreciated your 
work, and this subcommittee very much needs your advice and 
your thoughts about especially the budget issues, because it's 
so important. We spend so much money in support of our 
military, and need to do that.
    Mr. England. Senator Dorgan, thank you. Thanks for your 
comments.
    I will look back into that case. You know, I know we did do 
a lot of work, and I don't have all the details of that 
particular case. I will go back and see where that is today, 
because there was a lot of work done, and it did go into legal 
and that sort of prevented everybody from going further with 
it.
    But I'll tell you, you know, I mean, I always share 
everybody's concern whenever I hear anything about something 
that's either abusive or unethical, much less illegal. So I am 
where you are, to make sure we absolutely understand all these 
cases, and I do personally follow up on every single case of 
indiscretion that's brought to my attention. And I will look 
into this and see where it is, and I'll talk back with you 
again, sir, because obviously we do want to make sure that we 
carry out the responsibility of the Department appropriately.
    Senator Dorgan. Secretary, thank you very much.
    Mr. England. Thank you. I appreciate your comments, sir.
    Senator Inouye. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Let me start by thanking all of you, all three of you, for 
being here today. Regarding your budget request of $43 billion 
to recruit, train, and equip National Guard and Reserve forces, 
as you know, a Government Accountability Office (GAO) report 
released in January studies the National Guard domestic 
equipment requirements and readiness and indicates that as of 
November 2006, nondeployed Army National Guard forces in New 
Mexico ranked last in the Nation regarding equipment readiness, 
with less than 40 percent of the total amount of dual-use 
equipment that they are authorized to have for warfighting 
missions.

                          EQUIPMENT SHORTFALLS

    My first question is, how will the Department's $43 billion 
funding request in this budget be used to address the serious 
equipment shortfalls needed in New Mexico and many other 
States? And, second, what other action is the Department taking 
to ensure that the National Guard is equipped to do their job 
at home and abroad? The second one is general; the first one is 
New Mexico, Mr. Secretary.
    Mr. England. Okay. I think between the three of us we can 
answer that question for you, Senator.

                         RECONSTITUTE THE FORCE

    Fiscal year 2005 was the first year that we started putting 
substantial money in the budget, at that time in the 
supplemental, to reconstitute the force. Up until then we 
didn't have--I mean, it was sort of understood that we wouldn't 
have those kind of funds in the supplemental account, but in 
2005 we started putting those funds in.
    We have now put in a lot of money--I'm not sure of the 
totals, perhaps Tina can help me here, of the total amount of 
money that has gone into this reconstitution and replacement, 
repair of equipment, so we now have the depots pretty much full 
and the equipment is flowing, and a lot of that equipment will 
be used to reconstitute the force, including the National 
Guard. And in addition, in the base budget from 2005 to 2013, I 
believe we have a total of $36 billion for Guard modernization 
and equipment.
    So there's a lag in the system, and the lag has frankly 
hurt us in terms of just being able to backfill, because once 
the money is made available it could be anywhere from 1 year to 
about 3 years before the equipment comes out of the pipeline, 
but we are working that for all the Guard. In the meantime, we 
do make sure that all the Guards activated have equipment that 
they, if they do not have the equipment at their home station, 
they fall in on that equipment while we try to backfill it here 
at home.
    So there are some lags in the system, but I believe that in 
my judgment the money that we have requested and the money that 
the Congress is appropriating is being very helpful to make 
sure that we backfill this equipment we have been using for the 
war purposes. So in general I will tell you, I think we're on 
the right path here. Money is in the depots. New equipment is 
being procured. Money is being allocated for the National Guard 
over the fit-up, and it will slowly start refilling the bins as 
we go forward.
    Do you have anything, Admiral?
    Admiral Giambastiani. Yes. If I could, Senator Domenici, I 
would just add simply that if I looked at the base budget that 
we've submitted for President's budget 2008 and the fiscal year 
2007 supplemental, and then the global war on terrorism 
supplemental for 2008, there's about $8 billion of this $36 
billion in those submissions.

                               EQUIPMENT

    Second, in order to not exacerbate the problem with the 
National Guard, about 90 percent of the equipment that is stay-
behind, that we use overseas, primarily in Iraq and 
Afghanistan, is actually active component equipment, so when we 
send brigade combat teams and others over to use this, they are 
falling in on equipments out of the active component, so only 
about 10 percent is actually out of the Reserve component.
    I guess the final comment that I would give to you with 
regard to these National Guard units is that yesterday I had 
the opportunity to go over and meet with all of the Adjutant 
Generals at the National Guard Bureau, with Lieutenant General 
Blum, and talk to them about their concerns on a wide variety 
of issues. Frankly, because of, I think, the amount of 
resources we're putting against this, and the amount of 
resources in the recruiting on the manpower side and the rest, 
this did not appear to be a big concern, if you will, that they 
expressed to me yesterday.
    Now, I'm not saying that they are not worried about the 
equipping piece. What I'm telling you is, I think they see the 
money the Deputy talked about in the pipeline and they know 
we're putting a focus and resources against it. So with your 
help here, this is going to be a significant change, I think, 
for the National Guard.
    Senator Domenici. Well, Mr. Chairman, let me just say that 
that's good to know. I think, if you don't mind, it would be 
good for me to be able to tell New Mexicans with a little more 
specificity that of the $43 billion you're saying will be used 
for the National Guard, some of it for equipment, that they 
won't be at the bottom of the list forever. We won't have 
guardsmen without equipment, for all intents and purposes, 
expected to go overseas, if deployed, and fight a war.
    Many New Mexico National Guardsmen have served already as 
part of the global war on terror, and many have redeployed and 
are going to be redeployed in the coming months. Are you 
assuring the Guards that they are going to have equipment and 
that they are going to be rested and ready in terms of what we 
expect for the average military units that are going now and 
are in this situation?
    Admiral Giambastiani. I guess what I would say, Senator, is 
that you can be assured that you have our commitment here, both 
on the civilian and military side of the Department. The Deputy 
and I sit with these folks every day, and we bring in General 
Blum and his staff, and he participates in our resourcing 
discussion, so I think you have a good solid commitment here.
    Mr. England. Senator, we'll follow up with you 
specifically, too, in terms of those allocations of funds, so 
we'll get back with you on that and give you some specific 
detail.
    [The information follows:]

    The New Mexico Army National Guard's current unfunded 
equipment requirement totals $244 million. If the appropriate 
level of funding was made available to the Department of 
Defense, equipment procurement would be executed by the Army. 
The National Guard Bureau allocates equipment to states' units 
based on their wartime mission requirements with consideration 
given also to the states' emergency response requirements. 
Given this practical consideration, it is not possible at this 
time to determine exactly how much of this $43 billion in 
funding will be used for New Mexico equipment requirements.

    Senator Domenici. I assume I'm out of time. I will come 
back. I'll just let you go by, and I have two more similar 
questions.
    You want me to proceed?
    Senator Inouye. Senator Cochran.
    Senator Cochran. I will be happy to yield to the Senator.
    Senator Domenici. Thank you very much, Mr. Chairman, Mr. 
Former Chairman.

                  AIR FORCE SPECIAL OPERATIONS COMMAND

    Okay. Well, I have two more areas of questions. One has to 
do with Cannon Air Force Base. As you know, last year the 
Secretary of Defense assigned the use of Cannon Air Force Base 
to the Air Force Special Operations Command, AFSOC, to 
establish a western base.
    Now, I'm sure you know this, but I want to bring it up here 
today because I want to make sure that you are aware that in 
the BRAC findings Cannon was the only base that when they were 
finished, it was so hard to decide on that they put it in a 
special category and said, ``It will sit there so you can try 
to find a use for it.'' And the Air Force went to find a use 
right away and said, ``We think we need this for AFSOC,'' so 
it's going to be one of those bases. This was a very exciting 
thing for us to have the Air Force to have a new use for a very 
great base. It's going to be turned into a multipurpose base 
instead of one that has F-16s.
    It's my understanding that there is $70 million in the 
fiscal year 2008 unfunded requirement list for Cannon Air Force 
Base. It's also my understanding that much of the construction 
is needed for AFSOC to implement its plan for Cannon. My 
question is, what are the Department's plans to meet these 
unfunded requirements so that AFSOC can begin operating its new 
western base in October 2007?
    Mr. England. Well, Senator, I can address that for you. The 
Air Force Special Operations Command will take ownership. The 
base will be operational in October this year, so that will 
happen. The $70 million will not affect that. We will make that 
date.
    I also want you to know that our Special Operations 
Command, the U.S. Special Operations Command, has programmed 
well over $200 million, about $230 million across the FYDP for 
Milcon, and the Air Force has programmed another $400 million 
for both operation and maintenance (O&M) and Milcon, also 
across the FYDP. So there is well over $600 million for Cannon 
in terms of facilitizing it and operation and maintenance at 
the base.
    The $70 million was sort of a surprising number, to find 
out that it was unprogrammed, and I need to look into that 
although I understand some of it is to accelerate some of the 
money early. So we'll look into it, but I believe frankly that 
we have everything programmed appropriately, and we'll make 
sure we don't have a shortcoming that would jeopardize 
occupying the base and operating the base.
    Senator Domenici. Thank you very much. It's very important, 
as you know. We no longer have that big base sitting there. And 
then we come up to the time of transition and to not have the 
money to make it what it's supposed to be concerns me.
    Mr. England. Yes, sir.
    Senator Domenici. I have another one I'll submit in 
writing, Senator, so we can proceed. I thank you so much for 
your generosity.
    Senator Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have a statement that I 
would like to be included in the record. I'll start with my 
questions.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join the members of the 
committee in welcoming our witnesses this morning.
    This has been a challenging year for our Armed Forces and 
they have made us proud by the way they have stepped up to that 
challenge. The Global War on Terrorism requires constant 
vigilance and a winning strategy. Our Armed Services require 
the continued support of this Congress and the American people 
to help ensure the safety and security of our country.
    This challenge makes us aware of the importance of the 2008 
funding proposal for the Department of Defense. We must ensure 
our men and women in uniform have the equipment and training 
necessary to succeed and to return home safely.

    Senator Cochran. Thank you very much for the outstanding 
leadership you are all providing for our armed forces in 
dealing with the challenges that we face in the global war on 
terror. When the President came before the Congress and made 
his State of the Union address, he mentioned a request for 
Congress to increase the end strength of the Army and the 
Marine Corps. Matter of fact, he specifically asked that in 5 
years there be an additional 92,000 Army and Marine Corps 
personnel added.
    This is, of course, going to inevitably increase the need 
for amphibious ships and other equipment, materiel, to support 
these troops. In looking at the budget request, there is one 
LPD-17 amphibious ship suggested in the 2008 budget proposal, 
but you look at the Navy unfunded program list and you see an 
additional LPD as being unfunded. As a matter of fact, it's the 
top item on the list.
    Can you tell us what the plans are of the Department of 
Defense to support the increase in marines and the end strength 
as it relates to ship capacity and the future needs that we 
have?
    Mr. England. Senator Cochran, I can. I know that Navy 
increased their budget substantially this year for 
shipbuilding, I believe like $3 billion increase in the 2008 
budget, so that has gone up appreciably. My understanding is 
they also, frankly, have some limitations, just numbers of 
workers available and working hours on ships these days. So I'm 
not sure they can accelerate, but I know that they are working 
to get the 313 ship Navy by 2020 and they have significantly 
increased funding.
    Above and beyond that, frankly I have not talked to the 
Navy about their plans. I mean, that's the latest I know, is 
what's in the budget, which is quite a significant increase. I 
think it went from $11.-some billion to $14.-some billion in 
shipbuilding. Frankly, as an old ex-Secretary of the Navy, I 
was pleased to see them reach that $14 billion because that had 
been the objective for some time, to get to that sustained 
level of funding.
    So if there's anything beyond that, however, I'm not 
familiar with it, Senator Cochran, but I'll be happy to address 
it with the Navy.

                              SHIPBUILDING

    Senator Cochran. Admiral, you've got a Navy background and 
understand these needs. As Vice Chairman, what is your 
assessment of the ability of the Department to sustain the 
requirements that we have for the Navy and Marine Corps as far 
as shipbuilding is concerned in this budget request?
    Admiral Giambastiani. Well, I, too, like Secretary England, 
am very pleased that we have achieved $14.4 billion worth of 
shipbuilding. I will tell you, as a former director of 
resources on the Navy staff almost 7 years ago, I set a target 
at that time for a budget between $12 and $14 billion a year, 
and this was 7 years ago, to sustain the shipbuilding level to 
allow us to get to approximately this number of 313. We hadn't 
decided that number quite yet, but we knew the approximate 
band. And I will tell you that only with sustained funding 
levels like this will you be able to achieve and get back to 
that 313 from the 280 or so that we are right now.
    Senator Cochran. Are you saying that remains a goal?
    Admiral Giambastiani. Sir, I think the Navy's 30-year 
shipbuilding plan that Secretary England mentioned specifically 
states 313 ships, and their goal is to get that by 2020, and it 
will take that level of funding to get there.
    Senator Cochran. Okay. Thank you. Now we're pleased, 
Secretary England, to notice in your statement your comments 
about missile defense systems and our continued effort to 
improve those and deploy them. Could you elaborate on how the 
budget for fiscal year 2008 will be used to enhance our missile 
defense capabilities around the world?
    Mr. England. Senator Cochran, as I recall we have about 
$9.9 billion in missile defense this year, and it goes across 
the wide array of missile defense applications. As you know, we 
now have operational sites in our missile defense, so this is 
to expand the number of missiles. It also expands the 
capability into Europe, as we start those discussions for 
European deployments. But this is to increase the number of 
missiles both at fixed sites and also on our naval sites. It 
also continues a significant amount of research and development 
in our missile defense activities.
    And I would add, by the way, in my judgment this has been 
one of the most successful programs in terms of what has been 
achieved in missile defense. I know some years ago there was 
great controversy about the program, but it has made great 
strides. We now have capability in place, and in my judgment 
very important capability, with the world the way it is today 
in terms of what other nations are doing in both their missile 
systems and nuclear capability. So this is a very important 
capability for the Nation, and it has progressed significantly, 
and this budget allows us to continue the deployment of those 
missiles.
    Senator Cochran. Admiral Giambastiani, I know that you are 
aware the Navy has been talking about options for deployment of 
missile defense capabilities at sea, being able to have a 
mobile force. What is your assessment of the progress being 
made in that regard with respect to missile defense?

                           SEA AND LAND BASED

    Admiral Giambastiani. Overall, if I could just address not 
only the sea-based side but the sea- and land-based side, just 
to give you an example, over the next year we're going to 
triple, over triple the number of interceptor missiles, between 
ground-based and sea-launched, that we have available over the 
next 12 months. That is, in funding, this just under $10 
billion that the Secretary mentioned.
    So I think that's a very good news story. There are not 
going to be large numbers of these, but we will over triple the 
number that are available, and that includes the sea-launched 
side of this equation. We do have some sea-launched missiles 
available, very small numbers. I won't get into the specifics 
because of the classification, but I will tell you that those 
numbers are going up, and clearly we have to have not only a 
ground-based component of this missile defense, but we also 
need the sea-based and the air-based side of this.
    Senator Cochran. Secretary England, last month Secretary 
Gates announced a change in Reserve component policy that 
changes the way Reserve component forces are managed to support 
requirements for the global war on terror. The Secretary said a 
policy objective was for a mobilization ratio of 1 to 5 for 
National Guard and Reserve units. Does this funding request 
before our subcommittee adequately address the challenges of 
manning the force to achieve this goal?
    Mr. England. Yes, sir, it does, particularly between the 
base budget and the supplemental that we have turned in, it 
does support that. It also supports the equipment for that. So 
between the equipment, manpower, you know, periods of 
activation, that is what we have funded in this budget, so it 
does support that. And that was going from 18 months to 12 
months for reservists, so 12 months served time, and having an 
adequate dwell time, which I believe was the one-in-five for 
the Reserves. So that is the basis of our budget proposal, 
Senator.
    Senator Cochran. I have a couple of other questions which I 
will just submit for the record. One has to do with the 
continued problem of corrosion of equipment, maintenance costs 
that are attributable to that problem. We have some suggestions 
for research that's being done that's very encouraging, about 
some of the new countermeasures that are available and coming 
on line. We hope you'll take a look at that and make sure that 
we're taking advantage of new discoveries to cut down on the 
maintenance costs of our military forces.
    Mr. England. Sure.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Inouye. Thank you, Senator Cochran.
    Senator Stevens.
    Senator Stevens. Mr. Secretary, over the last recess I took 
the time to go visit the Predator factory and saw the new 
Warrior and some other things out there. I would urge you to 
take a look at some of the research that they've done now to 
try to adapt these unmanned aerial vehicle (UAV) systems to 
urban warfare, and particularly to the monitoring of activity 
in the urban landscape. Part of it is classified.
    But I was concerned over the rate of production there. With 
the Army asking for the Warrior and the marines asking for some 
of the similar systems, it does seem that that's the most cost-
effective system, what they're talking about now, in terms of 
urban warfare. I would urge you to take a look at it. I don't 
know if you have, but it's a great change and has great 
promise, in my opinion.
    Mr. England. I'm familiar with it. The Admiral and I work 
together on this, and with the improvised explosive devices 
(IED) task force. And you're right, I'd rather not talk about 
all the details, but you can elaborate some, Admiral.
    Admiral Giambastiani. Senator Stevens, I completely agree 
with you, there are some exciting things on the home front here 
with regard to these unmanned aerial vehicles. I have been to 
the plant. I have visited the factory myself. I have looked at 
it in detail.
    And in this budget request and also in the supplementals 
that we have submitted here with the President's budget, there 
are substantial requirements in there and funding, resourcing, 
obviously subject to Congress' approval, for Predators and 
Warriors. We have just deployed our first couple of Warriors. I 
agree with you, without going into a lot of detail, that we can 
put some changed detection improvements into these, and, in 
fact, are planning on doing that through the joint improvised 
explosive device defeat task force that Secretary England was 
talking about. So there are some real substantial changes here, 
but we are about doubling the number of requests for Predators 
that we had before in this submission.
    Senator Stevens. That's good to hear. I think that the 
concept of force protection that's involved in these new 
experiments is just staggering, and it is really an interesting 
combination of technology now. You're right, we shouldn't talk 
too much about it, but I do think that those systems have a lot 
to do with the safety of our forces and what's going on in Iraq 
right now.
    Thank you, Mr. Chairman.
    Mr. England. Senator Stevens, there's an aspect of that, we 
would like to have a private discussion with you because 
there's one aspect of that that's extraordinarily interesting 
and, you know, in a private conversation we'd like to be able 
to discuss a little bit further with you.
    Senator Stevens. Yes, sir. Happy to do that.
    Senator Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. Let me follow up 
on the unmanned aerial vehicle issue. My understanding is that 
there is a UAV program in the--well, I know there's one in the 
Air Force. I understand that the Army has a separate program, 
the Navy has a separate program, which seems to me to suggest 
almost everything that's wrong with the way we do business in 
the Pentagon.
    Why would we have three separate UAV programs? Why not have 
a UAV program in the Air Force and have, to the extent that 
there needs to be UAVs, Predators or whatever the UAV might be, 
have the Army and the Navy involved in it? Are there three 
separate areas of research? I assume the Army is doing certain 
UAV research, Air Force, Navy. I don't have the foggiest idea 
why that would be the case.
    Mr. England. Senator, there's more than three UAV programs. 
I'm not sure of the total number. There's quite a few 
different----
    Senator Dorgan. I meant the three services, though, engaged 
in their own programs.
    Mr. England. Yes. Just a comment, and then I will let the 
Admiral.
    First of all, we have a lot of different requirements, and, 
of course, the Navy typically has a totally different, just 
like their airplanes are different because they're carrier-
based and stronger wings and corrosion, and all the things they 
face different from the Air Force. A lot of these also it 
depends on if they are tactical or if they are strategic, so 
there are different sizes and different ranges and different 
types of sensors.

                        UNMANNED AERIAL VEHICLES

    But we do have collaborative research, so we do have one 
organization, DDR&E, that brings together all the research for 
all of the programs. So they will typically diverge at a 
program level, but they do use a lot of common technology and 
we do fund a lot of common, you know, fundamental technology 
programs that go into those UAVs. So it's not disjointed. I 
mean, it may look like they're disjointed because we have 
different products, but they actually serve different purposes 
and in different environments, typically.
    Senator Dorgan. Are you saying there is not duplication? 
Because some suggest there is substantial duplication between 
the services on UAVs.
    Mr. England. Well, I won't say there's no duplication. I 
will say that every program is examined before it's authorized, 
to make sure that it is filling a specific void and is not just 
duplicating what another program is doing. So we do actually 
look at every one of these to make sure that there is a unique 
mission or a need, you know, that could not be filled by 
something that we already have. So what you don't see are all 
the programs that don't go forward because we feel like we can 
do it with a lesser number of programs.
    Admiral, if you want to comment----
    Admiral Giambastiani. Senator Dorgan, it's a great 
question. There are a lot of folks out there building UAVs, but 
let me tell you that we share your interest in having joint 
programs.
    And on the Joint Requirements Oversight Council (JROC), of 
which I'm the chairman, we have established, about the time I 
arrived, a joint UAV office. It's actually commanded by an Army 
General, Brigadier General. The deputy is an Air Force officer. 
We have all three services in it. It has been operating now for 
about 18 months. As a matter of fact, within the last 2 weeks I 
had this Brigadier General in my JROC session, to come in and 
give us a report on how they were moving along.
    They are writing concepts of operations for all of these 
UAVs. Now, let me just quickly explain to you why you might 
think that everybody has their own UAVs. Some unmanned aerial 
vehicles operate at what I call the strategic intelligence, 
surveillance, and reconnaissance level. Then there's also an 
operational level, and then there's also tactical UAVs which 
generally are shorter duration. They fly at lower altitudes and 
are smaller aircraft, and they work directly assigned to a 
platoon, a company, a battalion of ground forces, for example, 
whereas generally the Predators are at a higher altitude. They 
have much longer durations. Global Hawk, same thing. And they 
operate with different intelligence, surveillance, and 
reconnaissance requirements.
    And what I would offer to you, without trying to go into a 
longer explanation, is I would be happy to come over and talk 
to you about how we're trying to move forward in a joint way 
here with the UAV program so that we don't waste the taxpayer 
dollar.
    Senator Dorgan. Mr. Chairman, just for the record, going 
back to one other point, let me submit for the record on the 
Bunnatine Greenhouse matter, Mr. Secretary, for your perusal, a 
letter from the inspector general at the Defense Department 
which was November 2005.
    He says that he examined the allegations made by Ms. 
Greenhouse, principal assistant responsible for contracting for 
the Army Corps of Engineers, has shared his findings with the 
Department of Justice. The Department of Justice is in the 
process of considering whether to pursue the matter. As it is 
an ongoing criminal investigation, the requested information 
will be provided when the investigation is concluded.
    So, quite clearly, the inspector general felt there was 
something to the allegations, and for those allegations Ms. 
Greenhouse has been demoted, as you know. Again, I'm not laying 
this on your shoulders because you were not in charge at that 
point, but I want this for the record.
    Mr. England. No, but I will definitely follow up, Senator. 
It is of interest to me, and I'll definitely follow up and I'll 
close the loop with you on that, sir.
    Senator Dorgan. Thank you very much.
    [The information follows:]

    Ms. Greenhouse was removed from the Senior Executive 
Service because of ``less than fully successful'' performance 
evaluations. Her removal was required by Title 5, Code of 
Federal Regulations, Section 359.501, because she had received 
two final performance ratings of ``less than fully successful'' 
within three consecutive years. The first of those evaluations 
was given to Ms. Greenhouse before she made any allegations 
about what she felt were procurement irregularities. Because of 
the change in leadership of the U.S. Army Corps of Engineers, 
these ratings were given by two different rating officials, 
each of whom arrived independently at the conclusion that her 
performance was not fully successful. Both evaluations were 
reviewed by the ASA (ALT), who has functional responsibility 
for all Army acquisition activities, and the ASA (MR&A), who 
has responsibility for management of the SES.
    In order to ensure that Ms. Greenhouse's removal was based 
entirely on her performance, the Army Corps of Engineers sent a 
memorandum through the Department of the Army Inspector General 
to the Secretary of the Army requesting authorization to 
proceed with her removal from the SES. The removal action had 
been suspended by the Acting Secretary of the Army in response 
to her contention that her removal was based on allegations she 
had made of improper contracting practices. The DA IG contacted 
the DOD IG and was advised by the Director of Investigations of 
Senior Officials in the Office of the DOD Inspector General on 
June 13, 2005, that, ``The criminal investigation into 
procurement matters of interest to Ms. Greenhouse is 
continuing. However, there is no basis to delay actions 
concerning Ms. Greenhouse pending the outcome of that 
investigation.'' The Director further found no basis to delay 
the proposed removal because of a possible reprisal allegation. 
The Department of the Army Inspector General also reviewed the 
two ``less than fully successful'' evaluations for regulatory 
compliance, and found that the regulations were satisfied. On 
July 14, 2005, the Army determined that the record showed Ms. 
Greenhouse's proposed removal was grounded in her poor 
performance and not because of any allegations she made of 
contracting irregularities or her decision to testify before 
members of Congress.
    Regarding the criminal investigation by the Department of 
Justice into possible contracting irregularities, we have not 
received any updates on the case from the DOJ. The Department 
of Defense has no information to provide regarding the 
investigation, including whether or not it has been completed.
    If the committee would like more detailed information on 
the matters regarding Ms. Greenhouse, her EEO complaint, or the 
outcome of the administrative process that investigated her 
allegations of discrimination, we would be happy to provide it 
if the Committee so requests.

    Senator Dorgan. And, Admiral, I will take advantage of your 
suggestion that at some point maybe we can meet to talk about 
the UAV issue.
    Mr. Chairman, thank you very much.
    Senator Inouye. I thank you very much.
    Mr. Secretary, I will be submitting my questions and 
seeking advice, but I have one question I would like to ask. In 
yesterday's edition of the Army Times, an article appeared 
headlined ``Walter Reed Patients Told To Keep Quiet.'' Have you 
read that article?
    Mr. England. I saw it this morning, coming to work this 
morning, sir, and I haven't looked into it, but I did read the 
article this morning on the way to work.
    Senator Inouye. Will you look at it----
    Mr. England. I will.
    Senator Inouye [continuing]. And provide us with some 
explanation of what's happening?
    Mr. England. Absolutely.
    [The information follows:]

    The Army does not tolerate retribution or intimidation 
against Soldiers who report problems with conditions or medical 
care at any medical treatment facility. In fact, Walter Reed's 
Commanding General recently addressed Soldiers in the 
outpatient population and assured them that he would not 
tolerate retribution or retaliation for reports to the media. 
MG Schoomaker reaffirmed the rights of Soldiers to speak with 
the media and provided them with a written pledge that ``no 
Soldier will be penalized for coming forward with any of these 
issues and participating in any investigation, media story or 
the like. We are grateful for their candor and for helping us 
identify where we need to improve.''
    On July 1, 2006, the Walter Reed Medical Center Brigade 
Commander published a policy on Soldiers communicating with the 
media. This policy states that Soldiers assigned to Walter Reed 
are free to grant interviews to members of the news media. 
However, if Soldiers are acting in their official capacity, the 
WRAMC Public Affairs Office must approve visits by the media.
    The allegations that Soldiers' first amendment rights were 
violated are still under an Army Regulation 15-6 investigation.

    Admiral Giambastiani. I think it's important, though, 
Chairman, that we say that that's not our standard, to tell 
people to keep quiet. If they've got problems, we want to hear 
about them.
    Mr. England. Absolutely.
    Senator Inouye. Because this was rather specific.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary, Ms. Jonas, and Admiral Giambastiani, the 
subcommittee thanks you for your testimony this morning and for 
your distinguished service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Gordon England
             Questions Submitted by Senator Byron L. Dorgan
                    unmanned aerial vehicle programs
    Question. It is my understanding that the Air Force, Army and Navy 
all have their own medium/high altitude UAV programs.
    Don't the capabilities of the Army's Warrior UAV program 
essentially duplicate the existing or planned capabilities of the Air 
Force's Predator, Reaper and Global Hawk programs?
    Answer. No, the Army's Warrior Unmanned Aircraft System does not 
duplicate existing or planned capabilities of Predator, Reaper, or 
Global Hawk. While the Warrior is physically similar to the Predator, 
the improved design provides substantially greater endurance, greater 
payload capability, and improved reliability combined with reduced 
operating cost. The Concept of Operations (CONOPS) for each system 
supports specific and unique Service requirements. The Air Force's 
CONOPS for Predator relies on reach back and operates at the theater 
level. The Joint Requirements Oversight Council validated the Army's 
Extended Range Multi Purpose (ER/MP) unmanned aircraft requirement. The 
Warrior capability is designed to operate in the tactical battle space 
in conjunction with the combat aviation brigade as a maneuver element 
conducting reconnaissance, surveillance, and target acquisition through 
closely integrated manned-unmanned aviation and ground teaming. The 
Warrior does not compete with the Reaper or the Global Hawk; as those 
system capabilities are very different and their CONOPS are focused at 
the theater and strategic level, respectively.
    Question. Would it make sense to relieve the Division and Corps 
commanders of the responsibility for security, transportation, 
logistics and maintenance of high/medium altitude UAVs and to have the 
Air Force provide ISR support to Army forces under a joint CONOPS and 
with habitually aligned AF personnel and assets?
    Answer. Land warfare operational commanders, division and lower 
echelons, willingly provide the incidental support efforts to preserve 
the combat power of unmanned Reconnaissance, Surveillance, and Target 
Acquisition (RSTA). They conduct combat operations every day, 24/7, 
using this vital and proven capability. We cannot decrease the combat 
power or take away the force protection it affords out of the hands of 
the Soldiers and Marines. Land warfare combat operations are 
experiencing the benefits of Manned-Unmanned teaming (MUM) of manned 
aviation and unmanned air systems toward the full potential with 
initiatives such as Task Force ODIN. Correspondence and direct reports 
from the commanders in the tactical combat zone conducting lethal 
operations universally state moving to a centralized and remote 
employment of UAVs decreases their flexibility and combat 
effectiveness. Integration of multiple combat systems at the lowest 
possible echelon used in a synchronized and trained battle command 
means of employment reduces fratricide, increases lethality, 
responsiveness, and reduces collateral damage. Direct experience in the 
Army's 25th Infantry Division shows the immediate improvement in combat 
capability when tightly integrated RSTA is used with our air and ground 
weapon systems to prosecute the Counter Improvised Explosive Device 
(CIED) fight.
    Question. Isn't the Air Force best suited to serve as the Executive 
Agent for development, acquisition, operations and policy for all 
medium and high altitude Unmanned Aerial Systems?
    Answer. The Air Force Chief of Staff recently proposed that the Air 
Force be designated as the Executive Agent (EA) for all UAS operating 
above 3,500 feet. Each Military Service (Army, Navy, Air Force, and 
Marines) has UAS that operate in that airspace. The Joint Staff is 
leading the Department's review of the Air Force proposal and will be 
using a methodology similar to that used in 2005. The Department last 
addressed the question of an EA for Unmanned Aircraft Systems (UAS) in 
2005. At that time, the Joint Staff formed a tiger team to determine if 
an EA for UAS was required. In lieu of an EA, the Department 
established a Joint UAS Center of Excellence at Creech Air Force Base, 
Nevada, to address doctrine and operational issues of unmanned 
aircraft. The Department also reorganized an existing organization, now 
called the Joint UAS Materiel Review Board, to address UAS materiel 
solutions. The Joint UAS Center of Excellence and the Joint UAS 
Materiel Review Board are performing the functions one would expect of 
an EA.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. The fiscal year 2007 budget contains $7 million for the 
Department of Defense Corrosion Prevention and Control Program and the 
fiscal year 2008 requests is just under $5 million. Since the return on 
investment is so great and the annual costs of corrosion so high, why 
does the Department of Defense continue to reduce the funding request 
for corrosion prevention and control?
    Answer. The fiscal year 2007 Operations and Maintenance (O&M) 
appropriation was $7.7 million and Research, Development, Test and 
Evaluation (RDT&E) Budget Activity (BA) 4 was $7.1 million. The fiscal 
year 2008 President's budget request contains $8 million in O&M and $5 
million RDT&E for a total of $13 million for this program, which 
represents a slight increase from the fiscal year 2007 budget request 
of $12.6 million. The Department recognizes the importance of funding 
to prevent and mitigate corrosion in both weapon systems and 
infrastructure.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. As you know, Holloman Air Force Base is planned to be the 
sight of the next F-22A beddown. Does the Department plan to locate the 
20 F-22s requested in fiscal year 2008 at Holloman, and what do you 
need from Congress to make this transition a reality in fiscal year 
2009?
    Answer. The F-22A program beddown is progressing as planned. The 
first F-22As to be beddown at Holloman AFB, NM arrive the second 
quarter of fiscal year 2009, with aircraft delivery completed in fiscal 
year 2011. Temporary operations and maintenance workarounds exist for 
all operations in advance of facilities construction completion.
                         future combat systems
    Question. On a similar topic, the Army is testing much of its 
Future Combat Systems technology at White Sands Missile Range. Your 
fiscal year 2008 request includes $3.7 billion for research, 
development, test and evaluation of FCS technologies. What does the 
Department need from White Sands Missile Range to accommodate these 
efforts?
    Answer. To facilitate the test and evaluation of Future Combat 
Systems (FCS) technologies during the fiscal year 2007-fiscal year 2008 
timeframe, Program Manger (PM) FCS requires the development of a Test 
Operations Complex (TOC) near the Oragrande Base Camp site. Currently, 
a complex of 6 buildings requiring varying amounts of upgrade has been 
identified for potential use to support FCS Spin Out 1 test and 
evaluation. PM FCS and White Sands Missile Range (WSMR) will jointly 
fund these upgrades. However, it is envisioned that a significantly 
larger TOC will be required to support System of Systems test and 
evaluation during both Integration Phases 2 and 3. Additional 
infrastructure includes the possible extension of the Fort Bliss Fixed 
Tactical Internet (FTI) to WSMR to support test and training and to 
Holloman Air Force Base to support JEFX 08. Finally, current plans 
require Army Evaluation Task Force (AETF) soldiers to commute from Fort 
Bliss to WSMR to support the execution of test events. As the FCS test 
program proceeds into subsequent Integration Phases, the size and scope 
increase to battalion size force-on-force events. Due to the large 
number AEFT soldiers required to support such events, the commuting 
concept of operations is not practical. Therefore, a review of the 
adequacy of soldier billets at WSMR to provide housing for soldiers 
during these extended events should be conducted. Pending the outcome 
of that review, a potential increase in the number of soldier billets 
at WSMR may be required.
            high energy laser systems test facility (helstf)
    Question. Lastly, the Army has proposed cutting funding for the 
High Energy Laser Systems Test Facility (HELSTF) by about $13 million. 
HELSTF has a host of valuable capabilities to the Department for 
directed energy testing and evaluation. I am concerned about the future 
of directed energy tests if HELSTF is under-funded and inoperable and 
would like to know the Department's plans for conducting such tests in 
the future.
    Answer. Funding for HELSTF was reduced to provide funds for higher 
priority Army programs. HELSTF is an important test facility that will 
continue to support directed energy tests and evaluation needs of the 
Department of Defense. A capability to support solid-state laser 
development programs will still exist at HELSTF, and will be utilized 
by the Army. Specifically, a series of tests in support of the Army's 
High Energy Laser Technology Demonstrator (HEL-TD) are planned in 2008 
thru 2013. A recent customer survey revealed that there are no 
identified test requirements for the Mid-IR Advanced Chemical Laser 
(MIRACL) or the Sea Lite Beam Director (SLBD), therefore the MIRACL and 
SLBD will be placed in storage.
    HELSTF will continue to support the Department's need for directed 
energy test and evaluation by standing up a Solid State Laser (SSL) 
testbed. The intent of the Solid State Laser testbed is to allow a 
laser weapon system developer to bring lasers to HELSTF at an early 
point in the weapon system development program. The SSL testbed will 
allow investigation of the systems engineering and integration issues 
associated with weaponizing lasers without having to build a prototype 
of the complete weapon system. A fixed testbed, based on existing 
hardware in place at HELSTF, provides a near laboratory environment and 
allows field-testing of lasers at HELSTF test areas. A transportable 
testbed, based on the existing ex-THEL hardware, and complemented by 
transportable diagnostic sensors, data collection, data processing and 
range control equipment, is planned to support field-testing of more 
advanced prototypes. Army funding allows these systems, operated by 
Government technical staff, to continue to support SSL weapon system 
development programs of the DOD. As with any complex program, there is 
some risk that should a major component fail, sufficient funds to 
affect a repair may not be immediately available.
    HELSTF will be positioned to support the Army's Counter-Rocket, 
Mortar, and Artillery (C-RAM) program, the Joint High Power Solid State 
Laser program, the Army's High Energy Laser Technology Demonstrator in 
the C-RAM role, and other SSL programs. The present workforce is sized 
and trained to operate MIRACL and SLBD. This workforce will be released 
in December 2007. In the near term, the smaller workforce will reduce 
the capacity at HELSTF; tests previously conducted in parallel may now 
have to be sequential, but in time the all government staff will 
acquire the training and experience to enable the facility to continue 
to provide the unique capabilities that HELSTF has traditionally 
provided to Directed Energy weapon system development efforts of the 
DOD. The staff will continue to help plan, design, and execute laser 
test and evaluation. Contract mechanisms are in place to supplement the 
Government personnel with contractor support, should the customer-
funded workload require this.
    Funding does not allow for acquisition of ``adaptive optics'' for 
the SSL Testbed. Without these optics to compensate for the effects of 
the atmosphere on the laser beam the range at which targets can best 
tested will be reduced. Modernization of other test capabilities to 
support Directed Energy are on going in the DOD Directed Energy Test 
and Evaluation Capabilities (DETEC) program funded by the Central Test 
and Evaluation Investment Program (CTEIP). These capabilities are 
presently focused on providing improved instrumentation to support 
Directed Energy T&E. The majority of DETEC capabilities will be fielded 
at HELSTF.
    The DOD's Directed Energy test and evaluation needs will continue 
to be supported by capabilities at HELSTF. It remains operational as 
the Nation's finest Directed Energy T&E Facility.
    Question. I understand the Department plans to expand Special 
Forces by more than 10,000 soldiers over the next 5 years. How many of 
these forces will be part of AFSOC?
    Answer. Over the next 5 years, fiscal year 2007-11, AFSOC will 
expand its force by 500 military and 155 civilians (this total includes 
classified personnel).
    Question. DOD has requested $1 billion to adjust the military's 
global posture. Why is this readjustment important to our defense and 
what can Congress do to help the process along?
    Answer. The Department's request of approximately $1 billion in 
PB08 for global defense posture realignment further advances critical 
posture changes already underway both overseas and as part of BRAC 
2005. These changes comprise a long overdue effort to transform our 
overseas legacy forces, Cold War basing structures, host-nation 
relationships, and forward capabilities to better contend with post 9/
11 security challenges. In fiscal year 2008 these changes include: 
continued redeployment of heavy divisions from Europe to CONUS; 
shifting south and east in Europe with transformation of the 173rd 
airborne brigade in Italy and establishment of Joint Task Force-East in 
Romania and Bulgaria; planning and design for future USMC realignment 
in the Pacific as part of U.S.-Japan force posture changes; development 
of basic infrastructure for current and future operations in the 
CENTCOM theater, and; development of bed-down infrastructure for new 
capabilities in Guam, Hawaii, and Alaska. Congress' continued support 
to fully fund BRAC changes is critical to the successful implementation 
of global defense posture. The Department appreciates that support, as 
well as Congress' vision in working with DOD to adapt our posture 
network globally for greater flexibility in the long war and other 
contingencies.
                                 ______
                                 
       Question Submitted to Admiral Edmund P. Giambastiani, Jr.
               Question Submitted by Senator Thad Cochran
    Question. I welcome this initiative and believe it should enhance 
our opportunity to build partnerships with the nations in Africa to 
help combat terrorism, reduce conflict, enhance stability, and promote 
the common values we share.
    Since this is a new initiative, I don't know if you were able to 
request funding in your fiscal year 2008 budget proposal. Could you 
outline for the committee the funding requirements and provide an 
overview of the Department's vision for Africa Command?
    Answer. In order to fully stand-up and operate the U.S. Africa 
Command (USAFRICOM) headquarters by the end of fiscal year 2008, we 
included a request for $75.5 million in fiscal year 2008 base budget 
submission.
    Our vision for USAFRICOM is that it will promote U.S. national 
security objectives by working with African states, allies, and 
regional organizations to strengthen regional stability and security. 
USAFRICOM will lead the in-theater DOD response and support other U.S. 
government (USG) agencies in implementing USG security policies and 
strategies. USAFRICOM will work closely with other USG and 
international partners to conduct theater security cooperation 
activities that build security and improve governance in the region.
    As directed, USAFRICOM will conduct military operations to deter 
aggression and respond to contingencies unilaterally or jointly with 
African states and regional organizations. Furthermore, USAFRICOM will 
address the threats in and from Africa through security cooperation and 
collaboration with other USG agencies to conduct humanitarian and 
disaster relief operations; strategic communications and information 
operations; provide medical and HIV/AIDS assistance; conduct stability, 
security, transition, and reconstruction activities; build partnership 
capacity; civic action; security sector reform; and military-to-
military activities.

                          SUBCOMMITTEE RECESS

    Senator Inouye. This subcommittee will reconvene on 
Wednesday, March 7, when we will meet to discuss the military 
health program, and we will now stand in recess.
    [Whereupon, at 11:45 a.m., Wednesday, February 28, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 7.]
</pre></body></html>
